U.S. Department of Agriculture
 Office of Inspector General
       Western Region
         Audit Report



       FARM SERVICE AGENCY
     CROP DISASTER PROGRAM
   PAYMENTS TO PEACH GROWERS
  SUTTER/YUBA COUNTY, CALIFORNIA




              Report No.
              03099-5-SF
              August 2002
                 UNITED STATES DEPARTMENT OF AGRICULTURE
                                 OFFICE OF INSPECTOR GENERAL
                                       Western Region - Audit
                                    75 Hawthorne Street, Suite 200
                                 San Francisco, California 94105-3920
                              TEL: 415-744-2851 FAX: 415-744-2871



DATE:       August 29, 2002

REPLY TO
ATTN OF: 03099-5-SF

SUBJECT: CDP Payments to Peach Growers, Sutter/Yuba County, California

TO:         John G. Smythe
            State Executive Director
            California State Office
            Farm Service Agency

ATTN:       Jeff Yasui
            Program Specialist


In July 2000, the California cooperative Tri Valley Growers (TVG) became insolvent, and
its members suffered significant losses on four crops—peaches, tomatoes, apricots, and
pears. In reviewing the $6.6 million that the Farm Service Agency (FSA) disbursed to
provide financial relief to 248 TVG peach growers (Audit Report No. 03099-4-SF), we
determined that ten of these growers also suffered losses due to weather damage,
enabling them to apply for assistance from FSA’s Crop Disaster Program (CDP). We
found that the FSA Sutter/Yuba County Office (county office) disbursed CDP payments of
$27,828 to four ineligible growers and overpayments of $27,759 to three other growers,
totaling $55,587 in erroneous payments.

BACKGROUND

FSA administers farm assistance programs through approximately 2,650 service centers,
referred to as county offices. The programs are designed to support farm income, improve
the environment through conservation, and assist eligible growers in obtaining disaster
relief. One of these programs, the 2000 CDP, provided financial assistance to eligible
growers for losses suffered due to disasters or adverse weather.

OBJECTIVE

The audit objective was to determine whether the correct production amount was used to
calculate CDP payments to TVG peach growers who also received relief payments through
the Limited California Cooperative Insolvency Payment Program (LCCIPP).
John G. Smythe                                                                         2

SCOPE

For crop year 2000, the FSA Sutter/Yuba County Office was the only county in California
that disbursed CDP payments to TVG growers who also received LCCIPP payments. We
reviewed all of these CDP payments which totaled $120,551, paid to 10 peach growers.

Audit fieldwork was performed in California from May through October 2001 at the State
FSA Office located in Davis; Tri Valley Growers corporate office located in San Ramon;
and the FSA Sutter/Yuba County Office located in Yuba City.

This audit was performed in accordance with generally accepted government auditing
standards.

METHODOLOGY

To accomplish our objectives, we performed the following procedures:

   •   At the county office, we collected grower CDP applications to determine the
       production reported by the grower.

   •   We analyzed producer entitlement reports at the county office to determine if TVG
       assigned production was included in the calculation of CDP payments.

   •   We obtained TVG contracted production amounts for growers receiving benefits
       from the CDP.

   •   We interviewed FSA officials to determine what actions were taken by the State and
       county office to conform with the CDP Handbook when calculating CDP payments
       to TVG growers.

FINDING

For crop year 2000, the CDP [xxxxxxx xxxxxxxxxx] failed to correct CDP payments made
to growers who participated in both the CDP and LCCIPP programs. This occurred
because [xx] disregarded State office instructions and the CDP Handbook. As a result, the
county office disbursed CDP payments of $27,828 to four ineligible growers and
overpayments of $27,759 to three other growers, totaling $55,587 in erroneous payments
(see exhibits A and B).

In an e-mail dated April 2, 2001, the State office instructed the CDP [xxxxxxx
xxxxxxxxxx] to “…not issue any CDP payments for producers who are participating in
the TVG [LCCIPP] program. You will be advised in a subsequent directive or
correspondence how to handle the TVG payment with the CDP.” Disregarding these
instructions, the following day, on April 3, 2001, the county office disbursed a CDP
payment to a grower.
John G. Smythe                                                                                                3

Subsequently, in an April 9, 2001 e-mail, the State office sent an electronic copy of the
CDP Handbook amendment1 to the CDP [xxxxxxx xxxxxxxxxx] that provided instructions
for correctly calculating CDP payments and for correcting previously issued payments to
growers who had participated in both the CDP and LCCIPP programs. These
instructions advised the county offices to “…assign [TVG] production, revise the [CDP]
application in the computer, establish a receivable/claim, and provide a notification
letter.” On April 11, 2001, a hard copy of the amendment was received by the county
office and was filed in the CDP Handbook.

Despite these instructions, we found that the CDP [xxxxxxx xxxxxxxxxx] (1) failed to
correct the April 3, 2001 CDP payment as well as five other previous payments, (2)
issued a seventh CDP payment to an ineligible grower on the day the amendment was
received, and (3) failed to establish receivables or provide notification letters for these
seven erroneous payments. In recalculating CDP payments as the amendment
directed, we determined that the county office disbursed CDP payments of $27,828 to
four ineligible growers and overpayments of $27,759 to three other growers, which totals
$55,587 in erroneous payments.

The CDP [xxxxxxx xxxxxxxxxx] did not remember receiving either the electronic copy or
the hard copy of the amendment. On April 12, 2001, a State office teleconference was
held that provided guidance about the amendment to county offices. Even though [xx]
received an e-mail from the State office that specifically requested the presence of CDP
[xxxxxxx xxxxxxxxxxx, xx] did not recall the teleconference either.

The CDP [xxxxxxx xxxxxxxxxx] did not meet [xxx] responsibilities when [xx] 1) continued
to make CDP payments to growers who participated in both the CDP and LCCIPP
programs and 2) failed to correct these CDP payments.

FSA should determine whether the 90-day rule2 is applicable and what action should be
taken on the $55,587 in erroneous payments to the seven growers. The State office
should review the circumstances of the erroneous payments and [xxxx xxxxxxxxxxxxxx
xxxxxx] if appropriate.




Recommendation No. 1:
1
  3-DAP, CA Amendment 3, paragraph 104(D) dated April 9, 2001.
2
  The Department of Agriculture Reorganization Act of 1994, Section 281, states that the decisions made by
the county office “…in good faith…shall be final not later than 90 calendar days after the date of filing of the
application for benefits, [and]…no action may be taken…to recover amounts [disbursed in error]…unless the
participant had reason to believe that the decision was erroneous.”
John G. Smythe                                                                            4


Make a determination whether the 90-day rule applies and, if not, collect $55,587 plus
interest since the date of disbursement from the seven growers who were erroneously
paid.

FSA Response:

FSA concurred with this finding and recommendation. FSA stated that the, “Finality Rule
[90-day rule] provisions apply for the overpayments and the County Office will be instructed
to provide documentation to the State Executive Director to forgive the overpayments.”

OIG Position:

We accept FSA’s management decision on this recommendation. For final action, the
FSA State Executive Director needs to forward documentation to the Office of the Chief
Financial Officer (OCFO) that forgives the overpayments.

Recommendation No. 2:

Review the circumstances of the erroneous payments and [xxxx xxxxxxxxxxxxxx xxxxxx
xxxxxxx xxx xxx xxxxxxx xxxxxxxxxx], if appropriate.

FSA Response:

FSA concurred with this finding and recommendation. FSA stated that, “the District
Director has been instructed to [xxxxxxx xxx xxxxxxxx xxxxxxxxx xxx xxxxxxxxxx xx
xxxxxxxxx xxxxx xxxxxx xxxxxxxxxxxx].”

OIG Position:

We agree with FSA’s corrective action. To achieve management decision, the agency
needs to provide us with the date when the CDP [xxxxxxx xxxxxxxxxx xxxx xx xxxxxxxxx].


CONCLUSIONS AND REQUIRED AGENCY ACTIONS:

Your August 28, 2002, response to the draft report is included as exhibit D of the report.
We have accepted your management decision for Recommendation No. 1. To achieve
management decision on Recommendation No. 2, the agency will need to provide us with
the date when the CDP [xxxxxxx xxxxxxxxxx xxxx xx xxxxxxxxx].

In accordance with Department Regulation 1720-1, please furnish a reply within 60 days
describing the corrective action taken or planned and the timeframes for implementation of
those recommendations for which management decision has not yet been reached.
Please note that the regulation requires a management decision to be reached on all
recommendations within a maximum of 6 months from report issuance.
John G. Smythe                                                                           5


The OCFO, U.S. Department of Agriculture, has responsibility for monitoring and tracking
final action for findings and recommendations. Please note that final action on the finding
and recommendations should be completed within 1 year of each management decision.
Follow your agency’s internal procedures in forwarding final action correspondence to
OCFO.

We appreciate the assistance and cooperation of your staff during our audit.


/s/

SAM W. CURRIE
Regional Inspector General
  for Audit
EXHIBIT A – SUMMARY OF MONETARY RESULTS

RECOMMENDATION
                              DESCRIPTION                AMOUNT          CATEGORY
    NUMBER

                  The FSA Sutter/Yuba County Office
                  made erroneous CDP payments to                   Questioned Costs –
       1
                  growers who participated in both the   $55,587   Recovery Recommended
                  CDP and LCCIPP programs.

 TOTAL MONETARY
                                                         $55,587
    RESULTS




                                                                                  PAGE 6
                                                                                                            Page 1 of 4

EXHIBIT B – GROWER CLAIM COMPUTATION WORKSHEET
     -A-     -B-      -C-    -D-            -E-            -F-          -G-        -H-         -I-           -J-
                                       (C x D x .65)   Actual and     (E - F)                            (E x H x I)
    Grower   Unit                        Disaster       Assigned    Production   Payment     Payment      Payment
                                                                                         1           2
     No.     No.    Acres    Yield        Level        Production      Loss       Rate        Level       Amount


      1      CDP Calculation Per FSA:
             102    9.40     17.38       106.19          46.80        59.39       $170         .65        $6,563
             CDP Calculation Per OIG:
             102    9.40     17.38       106.19         117.12          0         $170         .65           $0
             Differences:                                70.32                                            $6,563

             CDP Calculation Per FSA:
             103    3.90     17.63        44.69          22.10        22.59       $170         .65        $2,496
             CDP Calculation Per OIG:
             103    3.90     17.63        44.69          48.59          0         $170         .65           $0
             Differences:                                26.49                                            $2,496

             CDP Calculation Per FSA:
             104    10.7     19.63       136.53          89.00        47.53       $170         .65        $5,252
             CDP Calculation Per OIG:
             104    10.7     19.63       136.53         133.32        3.21        $170         .65         $355
             Differences:                                44.32                                            $4,897
             TOTAL OVERPAYMENTS TO GROWER NO. 1                                                          $13,956

      2      CDP Calculation Per FSA:
             106      4.90   14.25        45.39          24.60        20.79       $170         .65        $2,297
             CDP Calculation Per OIG:
             106      4.90   14.25        45.39         106.23          0         $170         .65          $0
             Differences:                               81.63                                             $2,297

             CDP Calculation Per FSA:
             107    7.90     17.38        89.25          39.60        49.65       $170         .65        $5,486
             CDP Calculation Per OIG
             107    7.90     17.38        89.25         111.77          0         $170         .65           $0
             Differences:                                72.17                                            $5,486

             CDP Calculation Per FSA:
             109    4.10     19.63        52.31          28.60        23.71       $170         .65        $2,620
             CDP Calculation Per OIG
             109      4.10   19.63        52.31          88.89          0         $170         .65          $0
             Differences:                                60.29                                            $2,620

1
 The payment rate for cling peaches as stated on the FSA disaster crop tables for 2000 was $170.
2
 The payment level for insured and noninsurable crops was 65 percent; uninsured crops had a payment level
of 60 percent.




                                                                                                         PAGE 7
                                                                                                     Page 2 of 4


EXHIBIT B – GROWER CLAIM COMPUTATION WORKSHEET
 -A-     -B-      -C-     -D-            -E-            -F-          -G-        -H-       -I-         -J-
                                    (C x D x .65)   Actual and     (E - F)                        (E x H x I)
Grower   Unit                         Disaster      Assigned     Production   Payment   Payment    Payment
 No.     No.    Acres    Yield         Level        Production      Loss       Rate      Level     Amount
  2      CDP Calculation Per FSA:
         101      2.10   17.38         23.72          19.20        4.52        $170       .65       $499
         CDP Calculation Per OIG:
         101      2.10   17.38         23.72          56.76          0         $170       .65        $0
         Differences:                                 37.56                                         $499


         CDP Calculation Per FSA:
         102    5.30     19.10         65.80          23.10        42.70       $170       .65      $4,718
         CDP Calculation Per OIG:
         102    5.30     19.10         65.80         143.26          0         $170       .65         $0
         Differences:                                120.16                                        $4,718
         TOTAL PAYMENTS TO INELIGIBLE GROWER NO. 2                                                $15,620

  3      CDP Calculation Per FSA:
         101    7.00     14.25         64.84          64.00         .84        $170       .65        $93
         CDP Calculation Per OIG:
         101    7.00     14.25         64.84         180.11          0         $170       .65         $0
         Differences:                                116.11                                          $93

         CDP Calculation Per FSA:
         102    1.30     17.38         14.69          8.40         6.29        $170       .65       $695
         CDP Calculation Per OIG:
         102    1.30     17.38         14.69          33.45          0         $170       .65         $0
         Differences:                                 25.05                                         $695
         TOTAL PAYMENTS TO INELIGIBLE GROWER NO. 3                                                  $788

  4      CDP Calculation Per FSA:
         100      34.6   17.63        396.50         303.40        93.10       $170       .65      $10,288
         CDP Calculation Per OIG
         100      34.6   17.63        396.50         633.87          0         $170       .65        $0
         Differences:                                330.47                                        $10,288


         CDP Calculation Per FSA:
         100    21.8     14.25        201.92         173.10        28.82       $170       .65      $3,185
         CDP Calculation Per OIG
         100     21.8    14.25        201.92         399.38          0         $170       .65        $0
         Differences:                                226.28                                        $3,185




                                                                                                  PAGE 8
                                                                                                         Page 3 of 4


EXHIBIT B – GROWER CLAIM COMPUTATION WORKSHEET
     -A-     -B-      -C-     -D-            -E-            -F-          -G-        -H-       -I-         -J-
                                        (C x D x .65)   Actual and     (E - F)                        (E x H x I)
    Grower   Unit                         Disaster      Assigned     Production   Payment   Payment    Payment
     No.     No.    Acres    Yield         Level        Production      Loss       Rate      Level     Amount
      4      CDP Calculation Per FSA:
             100    21.8     19.63         278.16         325.70      (47.54)      $170       .65     ($5,253)
             CDP Calculation Per OIG
             100    23.9     19.63         304.95         437.85         0         $170       .65         0
             Differences:                                 112.15                                      ($5,253)
                                                                                                               3
             TOTAL PAYMENTS TO INELIGIBLE GROWER NO. 4                                                 $8,222

      5      CDP Calculation Per FSA:
             101    7.70     14.25         71.32          58.20        13.12       $170       .65      $1,450
             CDP Calculation Per OIG
             101     7.70    14.25         71.32          98.01          0         $170       .65        $0
             Differences:                                 39.81                                        $1,450


             CDP Calculation Per FSA:
             302     4.1     17.38         46.32          14.20        32.12       $170       .65      $3,550
             CDP Calculation Per OIG:
             302     4.1     17.38         46.32          66.87          0         $170       .65         $0
             Differences:                                 52.67                                        $3,550


             CDP Calculation Per FSA:
             303    7.30     17.63         83.65          28.00        55.65       $170       .65      $6,150
             CDP Calculation Per OIG:
             303      7.30   17.63         83.65          71.52        12.13       $170       .65      $1,340
             Differences:                                 43.52                                        $4,810
             TOTAL OVERPAYMENTS TO GROWER NO. 5                                                        $9,810

      6      CDP Calculation Per FSA:
             101     4.5     19.63         57.42          31.00        26.42       $170       .65      $2,919
             CDP Calculation Per OIG:
             101     4.5     19.63         57.42          76.50          0         $170       .65         $0
             Differences:                                 45.50                                        $2,919


             CDP Calculation Per FSA:
             103    6.70     14.25         62.06          51.80        10.26       $170       .65      $1,134
             CDP Calculation Per OIG:
             103    6.70     14.25         62.06          61.52         .54        $170       .65        $60
             Differences:                                 9.72                                         $1,074
             TOTAL OVERPAYMENTS TO GROWER NO. 6                                                        $3,993

3
    FSA incorrectly paid the grower $8,222 instead of $8,220 on unit 100.




                                                                                                      PAGE 9
                                                                                                  Page 4 of 4

EXHIBIT B – GROWER CLAIM COMPUTATION WORKSHEET
 -A-     -B-      -C-    -D-          -E-            -F-          -G-        -H-       -I-         -J-
                                 (C x D x .65)   Actual and     (E - F)                        (E x H x I)
Grower   Unit                      Disaster      Assigned     Production   Payment   Payment    Payment
 No.     No.    Acres    Yield      Level        Production      Loss       Rate      Level     Amount


  7      CDP Calculation Per FSA:
         100   12.40     17.63      142.10        113.16        28.94       $170       .65      $3,198
         CDP Calculation Per OIG
         100   12.40     17.63      142.10        207.94          0         $170       .65         $0
         Differences:                              94.78                                        $3,198
         TOTAL PAYMENTS TO INELIGIBLE GROWER NO. 7                                              $3,198

         TOTAL PAYMENTS TO INELIGIBLE GROWERS AND OVERPAYMENTS                                 $55,587




                                                                                               PAGE 10
EXHIBIT C – TIMELINE OF EVENTS

    DATE                                                   EVENT

                                                                      1
    3/21/01     County office disbursed the following CDP payments:
                Grower no. 3                $788
                Grower no. 7              $3,198

    3/23/01     County office disbursed the following CDP payments:
                Grower no. 1             $14,311
                Grower no. 6              $4,053

    3/27/01     County office disbursed the following CDP payment:
                Grower no. 5             $11,150

     4/2/01      State office instructed the CDP [xxxxxxx xxxxxxxxxx] via e-mail to, “…not issue any CDP
                 payments for producers who are participating in the TVG program. You will be advised in a
                 subsequent directive or correspondence how to handle the TVG payment with the CDP.”


     4/3/01     Disregarding State office instructions, the county office disbursed the following CDP payment,
                which was also calculated improperly:
                Grower no. 4             $8,222

     4/9/01     State office sent an e-mail with an electronic attachment of the CDP Handbook amendment, CA
                Amendment 3, to the CDP [xxxxxxx xxxxxxxxxx]. The amendment explained how to correct
                payments previously made to growers but the county office failed to adjust the CDP payment
                calculation to account for TVG production and the TVG payment.

                The e-mail stated that a teleconference would be held that discussed, “the [L]CCIPP in general,
                and the CDP interaction,” and should be attended by [xxxxxx xxxxxxxxx xxxxxxxxx, xxxxxxx
                xxxxxxxxxxx xxx] any other appropriate parties.

                County office disbursed another CDP payment, which was calculated improperly:
                Grower no. 2           $15,620


    4/11/02     A hard copy of CA Amendment 3 was received by the county office and filed in the CDP
                Handbook. Again, the county office failed to adjust the CDP payment calculation to account for
                TVG production and the LCCIPP payment.

    4/12/01     State office held a teleconference with all county offices to discuss the CDP Handbook
                amendment. Although the CDP [xxxxxxx xxxxxxxxxx] was notified of the teleconference, [xx] did
                not participate or remember that the teleconference had been scheduled.
                As a result, the county office never recalculated or corrected the payments disbursed to the
                seven TVG peach growers as instructed under the amendment.


1
 The CDP [xxxxxxx xxxxxxxxxx] was unaware that [xx] needed to consider the TVG payments when
disbursing the CDP payments. As previously noted in the report, the TVG payments were made through the
LCCIPP.




                                                                                                  PAGE 11
EXHIBIT D – FSA WRITTEN RESPONSE TO THE DRAFT REPORT




                                                       PAGE 12
